No. 19-1074
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CELGENE CORPORATION, PETITIONER
v.
LAURA A. PETER, DEPUTY UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DEPUTY DIRECTOR,
PATENT AND TRADEMARK OFFICE
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION via email and first-class mail,
postage prepaid, this 1st day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5098 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 1, 2020.

May 1, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1074
CELGENE CORPORATION
LAURA A. PETER, DEPUTY

GREGORY A. CASTANIAS
JONES DAY
51 LOUISIANA AVENUE, NW
WASHINGTON, DC 20001-2113
202-879-3639
GCASTANIAS@JONESDAY.COM
AARON FRANKEL
KRAMER LEVIN NAFTALIS & FRANKEL LLP
1177 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
212.715.7793
AFRANKEL@KRAMERLEVIN.COM

